No.

In The
Supreme Court Of The United States

HALLMARK CARE SERVICES, INC. ET AL.,
Petitioners,
v.
SUPERIOR COURT OF WASHINGTON FOR THE
COUNTY OF SPOKANE ET AL.,
Respondents.

On Petition for a Writ of Certiorari To The
United States Court of Appeals
For the Ninth Circuit
CERTIFICATE OF ELECTRONIC SERVICE
PETITION FOR A WRIT OF CERTIORARI
JOHN PIERCE
Counsel of Record
505 W Riverside Ave., Ste. 518
Spokane, WA 99201
(509)210­0845
john@lawps.com
Attorney for Petitioners

CERTIFICATE OF SERVICE
I declare under penalty of perjury under the
laws of the United States of America that the
foregoing is true and correct.
On the date as executed below, a true and
correct copy of the Petitioner's PETITION FOR
WRIT OF CERTIORARI was served on the following
persons by electronic mail:
PAUL L. KIRKPATRICK, WSBA 16491
pkirkpatrick@ks­lawyers.com
KIRKPATRICK & STARTZEL, P.S.
108 N. Washington Street, Ste. 201
Spokane, WA 99201
Counsel for Respondents
Executed on October 29, 2020, by
s/John Pierce/
JOHN PIERCE
Counsel of Record
505 W Riverside Ave., Ste. 518
Spokane, WA 99201
(509)210­0845
john@lawps.com
Attorney for Petitioners

